                               CLOSEOUT FOR CASE M99060034

 On 22 June 1999, we received an allegation of misconduct in science in an e-mail message fiom the
 complainant1to an NSF program officer.' The complainant alleged that subjects 1 & 23 submitted an
 NSF proposal4that contained some of the same ideas and techniques presented in the complainant's
 declined NSF proposalS(intellectual theft). In addition, the complainant expressed concern that the
 subjects, despite their conflicts of interests (COI) with his proposal, served on panels that evaluated his
 declined proposal.

We discovered that the complainant had been told that the subjects served on his panel by the program
officer. We learned that the program officer's Division had, for many years, provided the names of the
specific panelists who evaluated a PI'S proposal whenever the PI asked for this information. We
worked with the Ofice of General Counsel (OGC)and the Division ~ i r e c t o rto~ determine if the
Division's practice was consistent with NSFYspolicies. OGC determined that the Division's practice
contradicted National Science Board           The Division Director agreed that the Division would no
longer provide this information to PIS.

With respect to the alleged intellectual theft, our review determined that the proposals presented similar,
but not identical, research ideas and techniques. We also determined that both the,research ideas and
techniques were not unique to either the complainant or the subjects. The program officer agreed that
the ideas and techniques contained in the proposals were commonly employed by scientists in this
research community. We concluded that there was no substance to the allegation that-the subjects used
the complainant's unique ideas and techniques in their proposal.

With respect to the complainant's concern about the subjects' COI, the program officer expressed his
opinion that the subjects' participation as panelists for the complainant's proposal did not bias the
decision. However, he encouraged the complainant to request a reconsideration of the proposal. The
program ofiicer agreed with us that a reconsideration would help resolve the complainant's concern
about fairness in the review of his proposal.

This inquiry is closed and no further action will be taken.

cc: Integrity, IG




                        -
 s u b m - ~bv-mbiect 1. sub


 SUb&#ed bv the C O ~ D -


NSB-84114,Item V 3 no c 8 s r r e V i e w to be associated with an individual panel member,a reviewer
(panel or ad hoc), or subgroup of an entire panel, except asrequired by law."

                                               Page 1 of 1                                     M99-34
